Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, TEENSupreme Career Prep Program Grant Awarded to the Boys and Girls Clubs of America, Inc.Grant Number 1998-JN-FX-0007

Report No. GR-40-04-005


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the TEENSupreme® Career Prep Program grant, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention to the Boys and Girls Clubs of America, Inc. (BGCA), headquartered in Atlanta, Georgia. The purpose of this grant was to build upon the existing efforts of the BGCA and the Taco Bell Foundation to provide educational, recreational, and community service activities through current TEENSupreme Centers operated nationwide by local BGCAs.  As of August 31, 2003, the BGCA was awarded a total of $9,275,000 to provide a comprehensive array of career preparation services to teenage youth ages 13 to 18 with a special emphasis on job preparedness, placement, and follow-up support services for 16 to 18 year-old club members.  We tested the BGCA's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
At the time of our audit, the BGCA had been reimbursed the entire $9,275,000 grant amount.  Our audit revealed deficiencies in the areas of reporting, grant drawdowns, budget management and control, and grant expenditures.  As a result, we question $437,885 in grant funds received.1  In brief, we found that the BGCA:

did not submit one required progress report and submitted most other progress reports untimely.


claimed and was reimbursed unallowable and unsupported costs based on unapproved expenditure categories, unavailable contract documentation, and overstated reimbursement requests.


transferred grant funds to unapproved budget categories to cover actual costs.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.